                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A05050029                                                          11          Page 1 of 1



         An allegation was received' that a substantial amount of text in a submitted NSF proposal2with a
         single PI was duplicated from publications not referenced in the proposal, said publications
         authored by individuals not cited in the proposal. The subject3was contacted, and confirmed the
         provenance of the plagiarized text, but explained that one of the authors on the source
         publications4 was in fact a coauthor of the proposal. The absence of a reference to the source
         publications was an oversight. Absence of any mention of the author was a consequence that
         FastLane provided no opportunity to list proposal authors or participants other than the PI.

          An author of the publication from which text was plagiarized sent a letter that confirmed his
          participation in preparation of the proposal, and his permission for the text to be reused in the
          proposal, and agreed that the missing references were an oversight. The assertions of the author
          were confirmed in a phone conversation5with him.

          Accordingly, this case is closed.




          '   Redacted.
              Redacted.
          3
              Redacted.
         4
              Redacted.
              Redacted.



NSF OIG Form 2 (1 1/02)
